BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Heather Campbell, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief in
Opposition in 21-235, Gary Heidel, et al. v. Sheriff
Anthony Mazzola, et al., was sent via Three Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Three Day service and e-mail to the following
parties listed below, this 12th day of October, 2021:
J. Keith Killian
Killian Davis Richter & Kraniak, PC
202 North Seventh Street
Grand Junction, CO 81501
(970) 241-0707
keith@killianlaw.com

Counsel for Petitioners
Jeffrey Lynn Driscoll
Counsel of Record
Williams, Turner & Holmes, P.C.
744 Horizon Court, #115
Grand Junction, CO 81506
(970) 242-6262
j driscoll@wth-law.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

I www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
' Cincinnati , Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 12, 2021.

Heather Campbell
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

OC4-k /d-1 J-acr/
cf!A tJ . ~

Date:

Notary Public '
[seal]

JOHN D. GALLAGHER
Notary Public, StatedOHo
My CommiSllan Elplres
February 14, 2023

